TN

C@OCKLE

: E-Mail Address:
L ega 1 B rie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-783
NATHAN VAN BUREN,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
NATIONAL WHISTLEBLOWER CENTER AS AMICI CURIAE IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1613 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of July, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ener] Kone. 0. Llosa Onduae-b, hele

Notary Public Affiant SIIST

 

My Comm. Exp. September 5, 2023

 
